Attorneys for Petitioner
Andrew Michael Grossman
Counsel of Record

Baker & Hostetler LLP
1050 Connecticut Avenue, N.W.
Suite 1100
Washington, DC 20036

202-861-1697

agrossman@bakerlaw.com
Party name: Jade Thompson
Attorneys for Respondents
Nicole Marie Donovsky
Counsel of Record

Bricker & Eckler LLP
100 S. Third Street
Columbus, OH 43215

614-227-4866

ndonovsky@bricker.com
Party name: Marietta City School District Board of Education
Scott A. Kronland
Counsel of Record

Altshuler Berzon, LLP
177 Post Street
Suite 300
San Francisco, CA 94108
skronland@altshulerberzon.com

Party name: Marietta Education Association

415-421-7151

